No. 20A

IN THE
UNITED STATES SUPREME COURT

LA VERNE KOENIG, et al„
Applicants,
vs.ANDREW WHEELER, ADMINISTRATOR OF
ENVIRONMENTAL PROTECTION AGENCY, et al.,
Respondents.

CERTIFICATE OF SERVICE
The undersigned hereby declares, certifies, swears upon
oath and under penalty of peijury, as provided by Federal
Statute, 28 U.S.C. 1746, that the following documents:
1. Motion and Affidavit to proceed In Forma Pauperis for
Petition for Writ of Certiorari;
2. Petition for Writ of Certiorari with Attached Exhibits;
3. Affidavit of Word Count; and
4. Certificate of Service
were duly served by United States Mail, first class postage
prepaid upon:

)

-2-

United States Supreme Court
Office of the Clerk
1 First Street NE
Washington, DC 20543-0001
And that Applicants request this Clerk of Courts Notice
Appendix A, Attachment I, wherein, the Clerk of the
Courts, United States Court of Appeals for the Eighth
Circuit stated in a letter dated December 19,2019:
“We note that this matter was not served on any other
party by the district court. Accordingly, you are notified
that you are the only party to this appeal..
Pursuant to 28 U.S.C. 1746,1 swear that no other party has
been or is being served a copy of the Petition for Writ of
Certiorari, as no other party has appeared in any of the
Federal Courts below.
Deposited in the United States Mails and Served on this
day of December, 2020^

(U )Su^U
La Verne Koenig
15520 Hwy200ASE
Blanchard, North Dakota
58009-9326
Phone (701) 430-0096
Email: olecowboy7053@gmail.com

I

